Department of Homeland Security
   Ofﬁce of Inspector General

            DHS/U.S. Secret Service FY 2009 

              Antideficiency Act Violation
 





OIG-11-94                                       July 2011
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                                             Homeland
                                                             Security
                                 JUL 13 2011

MEMORANDUM FOR:               The Honorable Rafael Borras
                              Under Secretary for Management
                              Directorate for   Managemen~t
                                                        ~. {~r                              A
FROM:                         Charles K. Edwards                              .             CS
                                                                                          0/\;
                              Acting Inspector General·              0
SUBJECT:                      DHS/US. Secret Service FY 2009 Anti-Deficiency Act
                              Violation
                              OIG Report No. OIG-11-94

Attached for your information is our final letter report, DHS/US. Secret Service FY 2009
Anti-Deficiency Act Violation. We incorporated the fortnal comments from the
Directorate for Management in the report.

The report contains three recommendations. Your office concurred with all three
recommendations. Based on information provided in your response to the draft report,
we consider the recommendations resolved but open until we can verify that the
recommended actions have been implemented.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post the
report on our website for public dissemination. To promote transparency, your response
to our final letter report, including your corrective actions planned,will be posted to our
website.

Should you have any questions, please call me, or your staff may contact
Anne L. Richards, Assistant Inspector General for Audits, at (202) 254-4100.


Attachment
Background
The Government Accountability Office (GAO) reported1 that the Department of
Homeland Security (DHS) and the U.S. Secret Service (USSS) violated Section 503(b) of
the 2009 DHS Appropriations Act2 in fiscal year (FY) 2009. Although USSS’ budget
obligations in connection with presidential candidate nominee protection ended with the
inauguration on January 20, 2009, DHS did not notify Congress until June 30, 2009, that
USSS obligated $5.1 million in excess of the $41 million appropriated for this purpose.
Because DHS failed to notify Congress 15 days in advance of the USSS reprogramming3
action, the $5.1 million obligated by USSS was not legally available for reprogramming.
Therefore, GAO determined that DHS violated the Anti-Deficiency Act (ADA), which
prohibits the obligation of funds in excess of or in advance of available appropriations.

In July 2010, DHS requested that the OIG determine (1) the name and position of the
officer(s) or employee(s) responsible for the ADA violation, and (2) whether the
employee(s) is (are) suspected of willfully and knowingly violating the ADA.

Results in Brief
In FY 2009, USSS obligated funds more than 10% in excess of available appropriations to
cover a presidential candidate protection budget shortfall before submitting a
reprogramming request to the department for congressional approval. Component agencies
are required to submit such requests to DHS before any reprogramming decisions are
made, as DHS must notify Congress 15 days prior to their implementation. Because the
request was not submitted before the funds were obligated, the funds USSS obligated to
cover its presidential candidate protection costs in excess of appropriations were not legally
available for this purpose, thereby violating the ADA. We determined that USSS’ former
Chief Financial Officer (CFO) was responsible for the ADA violation reported by the
GAO. However, we found no evidence that the former CFO acted with any knowledge or
willful intent to violate the law.

Results of Review
In FY 2009, the USSS CFO was responsible for oversight of all financial management
activities relating to the agency’s programs and operations, including complying with
applicable regulatory and procedural guides. However, the CFO did not ensure that
sufficient funds were available to cover the agency’s FY 2009 presidential candidate
1
  U.S. Secret Service: Statutory Restriction on Availability of Funds Involving Presidential Candidate
Nominee Protection, B-319009 (April 27, 2010).
2
  Section 503(b) states, “None of the funds provided by this Act…shall be available for obligation or
expenditure for programs, projects, or activities through a reprogramming of funds in excess of $5,000,000
or 10 percent, whichever is less, that…augments existing programs, projects, or activities,…or…that would
result in a change in existing programs, projects, or activities as approved by the Congress, unless the
Committees on Appropriations of the Senate and the House of Representatives are notified 15 days in
advance of such reprogramming of funds.”
3
  Reprogramming is the shifting of funds within an appropriation to use them for purposes other than those
contemplated at the time of the appropriation.


                                                    2
nominee protection costs prior to incurring a budget shortfall. As early as October 2008,
USSS budget staff recognized that presidential candidate protection costs might exceed
its $41 million appropriation. In December 2008, the CFO chose not to pursue the option
of reprogramming funds to avoid a potential budget shortfall because he believed that
sufficient supplemental funds were available internally to cover presidential candidate
protection costs through the inauguration. However, by January 2009, USSS budget data
supported that the agency’s presidential candidate protection costs would exceed its
available appropriation.

Even after a budget shortfall was imminent, the CFO did not follow official guidance to
ensure that funds were legally available to cover USSS’ presidential candidate protection
costs through the inauguration. DHS’ FY 2009 Budget Execution Guidance states that a
reprogramming request arises from an unforeseen need to respond to operational
requirements, and advises that components should examine the need for a reprogramming
notification as soon as practicable. The guidance further states that components are
responsible for promptly notifying the department when reprogramming needs arise, and
that such notifications are required no less than 45 days before the reprogramming action
needs to occur. The guidance emphasizes that requests must be submitted before
reprogramming decisions are made since, by law, DHS must notify Congress of any
reprogrammings 15 days prior to implementation.

Through Inauguration Day 2009, USSS obligated $5.1 million in excess of its $41 million
appropriation to cover presidential candidate protection costs as they were incurred.
Because this amount exceeded the section 503(b) monetary threshold, DHS was required to
notify Congress 15 days prior to USSS’ reprogramming action to ensure that the funds
were legally available for obligation. However, USSS had already obligated these funds
without first submitting a reprogramming request to the department for congressional
approval. USSS did not submit an official request to the department to reprogram
$5.1 million for presidential candidate protection until June 1, 2009—more than 4 months
after it incurred obligations in excess of the statutory threshold.

Because USSS’ former CFO failed to ensure the timely submission of a reprogramming
request to the department prior to obligating funds more than 10% in excess of available
appropriations, we determined that he was responsible for the FY 2009 ADA violation
reported by the GAO. However, we have no evidence to support that the former CFO
acted willfully or knowingly to violate the law.




                                            3
Recommendations
We recommend that the DHS Under Secretary for Management report to the DHS
Secretary in compliance with ADA reporting requirements the individual(s) responsible
for the FY 2009 ADA violation reported by the GAO.

We recommend that the DHS Under Secretary for Management ensure that the DHS
Chief Financial Officer and the USSS Chief Financial Officer—

    1.	 Complete implementation of the November 30, 2009, corrective action plan
        developed in response to the Conference Report accompanying the FY 2010 DHS
        Appropriations Act.

    2.	 Complete implementation of the recommendations previously issued in
        GAO-10-7624 to improve financial management controls and communication
        related to presidential candidate protection budget execution.


Management Comments and OIG Analysis
We obtained written comments on a draft of this report from the DHS Under Secretary
for Management, and have included a copy of the comments in Appendix B. The Under
Secretary for Management concurred with each of our recommendations and provided
the status of the department’s efforts to comply with ADA reporting requirements and
actions taken by DHS and USSS to improve controls over financial management and
communications.

We consider our recommendations to be resolved; they will remain open until we can
verify that the recommended actions have been implemented. Respectively, each
recommendation will be closed after the department has provided us with the following:

    1.	 A letter formally notifying the President, Congress, and the Comptroller General
        of the individual responsible for the reported FY 2009 ADA violation.

    2.	 The final funds control policy and procedures issued by the USSS CFO related to
        the timing of internal and external reprogramming requests.

    3.	 Written notice from the GAO verifying that all recommendations issued to the
        Secretary of Homeland Security in GAO-10-762 have been implemented and
        closed.




4
 Secret Service: Additional Guidance Would Enhance Financial Management and Communication of
Candidate Protection Spending to Congress (GAO-10-762), June 30, 2010.


                                                4
Appendix A
Purpose, Scope, and Methodology

                   The objectives of this audit were to determine (1) the name(s) and
                   position(s) of the employee(s) responsible for an FY 2009 ADA
                   violation reported in GAO-10-762, and (2) whether the employee(s)
                   is (are) suspected of willfully and knowingly violating the ADA.

                   The scope of our audit was FY 2009 budget execution activities by
                   USSS and DHS related to presidential candidate nominee
                   protection during the 2008 presidential campaign. To conduct this
                   audit, we obtained and reviewed workpapers from GAO’s archives
                   developed in support of GAO-10-762. We performed procedures
                   in accordance with government auditing standards to verify that
                   GAO’s prior audit work was adequate and established a
                   sufficiently reliable basis for its use within the context of our own
                   audit objectives. We also independently obtained and analyzed
                   relevant documentation provided by USSS and DHS, and
                   interviewed personnel from both agencies.

                   We conducted this performance audit between July and November
                   2010 pursuant to the Inspector General Act of 1978, as amended,
                   and according to generally accepted government auditing
                   standards. Those standards require that we plan and perform the
                   audit to obtain sufficient, appropriate evidence to provide a
                   reasonable basis for our findings and conclusions based upon our
                   audit objectives. We believe that the evidence obtained provides a
                   reasonable basis for our findings and conclusions based upon our
                   audit objectives.

                   We appreciate the efforts by DHS management and staff to provide
                   the information and access necessary to accomplish this review.




                                         5
v.oJ. Vl;;P<lllllll;;11l VI nVIIIl;;ldlIU 0l;l,;UIIlY

245 Murray Lane, SW, Building 4\ 0
Washington,
 Appendix B DC 20528-0305
 Management Comments to the Draft Letter Report
Re:      Draft Report orG Project No. 10-143-AUD-CFO, USSS, "DHS/lJ.S.         ~
         FY 2009 Anti-Deficiency Act Violation" - For Official Use Only

Dear Mr. Edwards:

Thank you for the opportunity to review and comment on this draft report. T~
of Homeland Security (DHS) appreciates the Office of Inspector Genera l's (0
plaruling and conducting its review and issuing this report, requested by the D
Financial Officer (CFO).

We are pleased to note the 010 found no evidence that anyone acted with any
willful intent to violate the law. Your report contained two rccorruncndations.
below, DHS concurs with both recommendations. Specifically, OIG recomm<
Under Secretary for Management take the following actions:

Recommendation 1: Report to the DHS Secretary, in compliance wi th AI
requirements, the individual(s) responsible for the FY 2009 ADA violatiol
GAO.

Response: Concur. DHS will report the Anti-Deficiency Act (ADA) violatio
name of the individual whom the OIG dctennined was responsible, in accorda
Circular A-II and the Department's Administrative Control of Funds policy a
reporting violations, as documented in Section 2.5 of the DHS Financial Mam
Manual. DHS will also ensure the transmittal of notification letters to the Prc~
and Comptroller General. (Estimated Complction Date: June 30, 2011)

Recommendation 2: Ensure that the DHS Chief Financial Officer a nd thl
Financial Officer:

1. Complete implementation of the November 30, 2009, corrective actio I]
   in response to the Confereoce Report accompanying the FY 2010 DH!
   Act.



                                           6

   •   UH~   UCI'U   has updated ItS bUdget execution gUidance, which is avail
       and financial management staff Departrnent-wide, to provide clear din
       better
Appendix B    analyze and review execution reports and identify potential proc
Management Comments to the Draft Letter Report
       process. The updated guidance also addresses congressional Iimitatior
       and reprogramming and transfers. DHS ocro will continue to monit,
       wide implementation of this guidance and provide additional updates,

   •   Instead of quarterly obligation plans, DBS OCFO now requires the U,
       monthly obligation plans, with anticipated monthly obligations by Pro:
       and Activities (PI'A). Updates to the plans are provided to DBS OCFt
       submission of monthly execution reports. DBS OCFO budget desk of
       budget office persormel review and analyze the updates for early warn
       variances from the plan.

   •   DHS OCFO has developed and delivered to all DBS Component finan
       staff mandatory monthly execution report training as well as oversight
       congressional limitations and appropriations law. The training targetel
       monthly execution report and SF 133 for discrepancies.

   •   DHS OCFO budget office personnel provide technical assistance to til
       other Component CFOs, as necessary. The DBS OCFO budget desk c
       routinely schedules working sessions with USSS CFO to evaluate the I
       management controls that are in place for developing presidential cam
       estimates.

Improve Funds Controls

   •   Early Warning System: USSS CFO personnel track actual obligations
       and anticipated obligations in conjunction with benchmarks that act as
       USSS CFO of potential funding shortfalls.

   •   The USSS CFO has drafted policy to provide documentation of funds
       to ensure that internal and external reprogramming requests are submil
       before anticipated over-obligations are expected to occur. This draft p
       being routed through the USSS fonnal coordination process. The pro,
       implementing the policy are currently in the testing process to confinll


                                7

                                                2
    •   f"\JJ   IIllt':rmll lran::;lt':f:S auu ft:dllgIUm:m:s nuw n.::YUlft: wt:: nUlIlll,;aUUn anu VI
        of DHS OCFO within 24 hours of the request.
    Appendix B
    •
    Management Commenhas
        DHS OCFO     ts to timplemented
                             he Draft Letter Report
                                              procedures         to increase the rigor and respor
        reprogranuning requests.

    •   All external (above threshold) reprogramming proposals will be submitte
        by May 30, 2011, to meet the Appropriations Committee's June 30, 2011

    •   DHS Components are now required to first initiate an internal funding re
        lower priority spending within their budgets before reaching out to the D
        identify sources from other Components.

    •   Reprogramming using funds from other Components can only be request
        Component can clearly articulate the adverse impact of using internal res
        the shortfall.

    •   All reprogramming proposals must be submitted in writing and in the api
        A reprogramming will only be considered by the Department afte r the ill
        funding for lower priority efforts is clearly articulated and cOITUTIlUlicatec
        in writing.


2. Complete implementation of the recommendations previously iss ued in I
   improve financial management controls and communication rela ted to (:
   candidate protection budget execution.

    Response: Concur. DHS OCFO has begun implementation of all five recor
    included in the aforementioned report. In addition, the USSS CFO has draftl
    documentation and policies addressed in GAO's recommendations. Specific
    recommended that the Secretary ofDHS:

    •   Direct the Director of USSS to develop documented procedures f or prep'
        reviewing its l\1onthly Execution and Staffing Reports and Presidential C

IGovernment Accountabiliry Office. SECRET SERVICE: Additional Guidance Would Enham
Managemem and Communication ofCandidate Protection Spending to Congress (June 30, 201(


                                             8

                                                             3
          Ihls dralt polley IS currently bemg routed through the USSS tormal coord.
         The procedures for implementing the policy are currently in the testing pr(
         confirm
       Appendix B effectiveness. Testing is scheduled to be completed by the end of
       Management Comments to the Draft Letter Report
         The results of the coordination and testing processes will be incorporated i
         and procedures, to be completed by the end of June 2011.

   •     Direct Ihe DHS CFO 10 ensure Ihal DHS's Componenls, including USSS,
         and training on how to develop and document appropriate benchmarks IO!
         obligations and expenditures.
         DHS has implemented new guidance and new training on how to develop
         appropriate benchmarks for monitoring obligations and expenditures.

   •     Direct the DHS CFO [0 develop and provide written guidance clarifying Ii
         necessary in a reprogramming request from a Component to document int
         reviews and the negative impact ofusing internal sources.
         The DBS CFO has developed updated budget guidance clarifying the spec
         necessary in a reprogramming request from a Component to document inti
         reviews and the negative impact of using internal sources.

   •     Direct the DHS CFO 10 define limeframes by which DHS could assess tim
         submissions ofreprogramming notifications to the Appropriations Commi
         Within the updated budget guidance, DHS has specifically defined timefr'
         DHS could assess timeliness of submissions of reprogramming notificatiol
         Appropriations Committees.

Again, thank you for the opportunity to review and conuncnt on this draft report.
forward to working with you on future Homeland Security issues.



                                               Sincerely,
                                                         .-,
                                                            {

                                               Ra ael Borras
                                               Under Secretary for Management

                                      9

                                                  4
Appendix C
Major Contributors to this Report

                    Sandra John, Director
                    Gary Alvino, Analyst-in-Charge
                    Michael Staver, Independent Referencer




                                        10
Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Director, U.S. Secret Service
                      Chief Financial Officer, U.S. Secret Service
                      Audit Liaison, U.S. Secret Service

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                            11
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
